Nos. 19-840; 19-1019
_________________
IN THE
SUPREME COURT OF THE UNITED STATES
_________________
CALIFORNIA, ET. AL.
Petitioners,
V.

TEXAS, ET AL.
Respondents.
_________________
TEXAS, ET AL.
Cross-Petitioners,
V.

CALIFORNIA, ET AL.
Cross-Respondents.
________
ON WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE FIFTH CIRCUIT
_________________
REPLY IN SUPPORT OF
MOTION OF RESPONDENT UNITED STATES HOUSE OF REPRESENTATIVES FOR
ENLARGEMENT OF ARGUMENT TIME AND DIVIDED ARGUMENT
_________________
Respondent United States House of Representatives (House) respectfully submits this
reply to the opposition to its motion filed by Texas and the other respondent States (collectively,
Texas) that are challenging the constitutionality of the Affordable Care Act. Neither California
and the other petitioner States (collectively, California) nor the Department of Justice objects to
the House’s motion for divided argument. That is for good reason: the objections advanced by
Texas are baseless.

1

ARGUMENT
1. Texas asserts that the interests of the House and California are duplicative. That is
incorrect. The House has distinct and enduring institutional interests in how this Court’s
standing doctrine applies to lawsuits challenging federal statutes (particularly those brought by
state governments); in how principles of constitutional interpretation apply to federal statutes;
and in how principles of severability will apply in those cases in which this Court determines that
a federal statutory provision is unconstitutional. State governments do not share those
institutional interests, or even themselves have common views on those questions—as is made
obvious by the fact that Texas and California disagree in this case about how this Court’s
doctrines of standing, constitutional interpretation, and severability should apply.
In all events, if the risk of duplicative argument were a sufficient reason to deny a divided
argument motion, then there would be no reason to allow Texas and the Department of Justice to
divide argument in this very case. 1 Indeed, Texas itself welcomed the participation of the House
as amicus curiae at oral argument in Texas v. United States (No. 15-674) even though there was
no meaningful difference in the substantive arguments advanced by Texas and by the House in
that case. See Joint Motion of Respondents and United States House of Representatives for
Leave to Participate in Oral Argument as Amicus Curiae for Enlargement of Time for Oral
Argument and for Divided Argument, Texas v. United States, No. 15-674 (Mar. 31, 2016);
Order, Texas v. United States, No. 15-674 (Apr. 8, 2016) (granting motion).

1

Although Texas and the Department of Justice diverge on one ancillary remedial point, Texas is
perfectly willing to allow the Department of Justice to advance that argument during the time
allotted to respondents—making clear that Texas does not view that, or any other, part of the
argument of the Department of Justice to be inconsistent with its own interests.
2

2. As the House explained in its motion for divided argument, the House’s institutional
interests are strongly implicated in this case because the Department of Justice has declined to
defend the constitutionality of the Affordable Care Act and the House is the only federal party
doing so. Specifically, the Department is advancing positions on standing, the scope of
Congress’s constitutional power, and severability that would, if adopted by this Court,
substantially expand the scope of available constitutional challenges to Acts of Congress and
substantially increase the adverse consequences that would follow from such challenges when
they are successful. Needless to say, the House does not believe that those arguments advance
the interests of the United States, and it is therefore particularly important that the House
participate in argument.
3. On the other side of the scale, it is difficult to understand what legitimate interest
Texas has in opposing the House’s participation in argument. That participation would not affect
the ability of Texas to present its case at argument in any way.
Citing Virginia House of Delegates v. Bethune-Hill, 139 S. Ct. 1945 (2019), Texas
contends that the House cannot participate as a party in this litigation. But that case concerned
whether a state-government entity had standing to defend a redistricting plan in federal court.
Here, the House’s standing is irrelevant because California has standing. See Little Sisters of the
Poor Saints Peter & Paul Home v. Pennsylvania, No. 19-431, 2020 WL 3808424, at *8 n.6 (U.S.
July 8, 2020) (holding that Third Circuit “erred by inquiring into the [intervenors’] independent
Article III standing,” where another party “clearly had standing to invoke the Third Circuit’s
appellate jurisdiction” and both that party and the intervenors sought the same relief). And in
any event, the House does have standing. See Reply Brief for Petitioner 10, United States House
of Representatives v. Texas, No. 19-841 (Feb. 12, 2020).

3

As for the distinct question of whether the House is a proper party to this case, the court
of appeals granted the House intervenor party status, and Texas did not seek certiorari to review
that decision. Nor has it objected to the House’s participation in the briefing of this case. There
is thus no basis for invoking Bethune-Hill as a reason to deny the House participation at
argument.
4. Enlargement of the argument time also is appropriate here. This is a highly important
case, the outcome of which could affect the daily lives of millions of people. Certainly this case
is no less consequential than many others in which the Court has granted 40 minutes of argument
time per side. See, e.g., Order, Financial Oversight and Management Board for Puerto Rico v.
Aurelius Investment, LLC, No. 18-1334 (Sept. 11, 2019); Mot. for Divided Arg. 5.
CONCLUSION
For the foregoing reasons and those stated in the House’s motion, the House respectfully
requests that this Court enlarge the oral argument time for parties supporting California to 40
minutes, with 30 minutes allocated to California and 10 minutes allocated to the House.

4

Respectfully submitted,

/s/ Douglas N. Letter
Douglas N. Letter
General Counsel
Counsel of Record
Adam A. Grogg
Associate General Counsel
OFFICE OF GENERAL COUNSEL
U.S. HOUSE OF REPRESENTATIVES
219 Cannon House Office Building
Washington, D.C. 20515
Douglas.Letter@mail.house.gov
Tel: (202) 225-9700

Donald B. Verrilli, Jr.
Elaine J. Goldenberg
Ginger D. Anders
Jonathan S. Meltzer
Rachel G. Miller-Ziegler
Jacobus P. van der Ven
MUNGER, TOLLES & OLSON LLP
1155 F Street, N.W., 7th Floor
Washington, D.C. 20004
Tel: (202) 220-1100

Elizabeth B. Wydra
Brianne J. Gorod
Ashwin P. Phatak
CONSTITUTIONAL ACCOUNTABILITY
CENTER
1200 18th Street N.W.
Washington, D.C. 20036
Counsel for Respondent United States House of Representatives

July 13, 2020

5

